CERTIFICATE OF SERVICE
No. TBD
Ricky W. Campbell
Petitioner(s)
v.
Chad Wolf, Acting Secretary of Homeland Security
Respondents)
STATE OF MASSACHUSETTS)
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the Ricky
W. Campbell Petition for Writ of Certiorari, by mailing three (3) true and correct copies of the
same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Noel J. Francisco
Solicitor General of the United States
Room 5614, Dept of Justice
950 Pennsylvania Avenue
Washington, DC 20530-0001
(202)514-2217
supremectbriefs@usdoj .gov
Counselfor Chad Wolf

Lucas'SeDeus

March 18, 2020
SCP Tracking: Campbell-1026 Paramount Circle-Cover White

